1a
Appendix A
United States Court of Appeals
for the Fifth Circuit
-------------------------------------------------------------

No. 20-20217
-------------------------------------------------------------

KEVIN BYRD,
Plaintiff–Appellee,
versus
RAY LAMB, Agent,
Defendant–Appellant.
-------------------------------------------------------------------------------------------------------------------------------------------------------

Appeal from the United States District Court
for the Southern District of Texas
USDC No. 4:19-CV-3014
-------------------------------------------------------------------------------------------------------------------------------------------------------

(Filed Mar. 9, 2021)
Before KING, ELROD, and WILLETT, Circuit Judges.
PER CURIAM:
Kevin Byrd alleges that Ray Lamb, an Agent for
the Department of Homeland Security, verbally and
physically threatened him with a gun to facilitate an
unlawful seizure. Byrd filed a Bivens action against
Agent Lamb alleging use of excessive force to effectuate an unlawful seizure. Agent Lamb filed a motion to
dismiss pursuant to Federal Rule of Civil Procedure
12(b)(6). The district court denied Agent Lamb’s motion to dismiss. Agent Lamb now appeals. We conclude

2a
Appendix A
that Byrd’s lawsuit is precluded by our binding case
law in Oliva v. Nivar, 973 F.3d 438 (5th Cir. 2020), petition for cert. filed, 89 U.S.L.W. 28 (U.S. Jan. 29, 2021)
(No. 20-1060). We therefore REVERSE and REMAND
with instructions to dismiss the claims against Agent
Ray Lamb.
I.
In the early morning hours of February 2, 2019,
Kevin Byrd went to visit his ex-girlfriend, Darcy Wade,
at the hospital after she called to tell him that she had
been in a car accident. Byrd learned that Wade had
been in the car with Eric Lamb (Darcy’s then-boyfriend)
when they collided with a Greyhound bus. Byrd also
became aware that Wade and Eric Lamb had been
kicked out of a bar before the car accident occurred.
Byrd went to that bar to learn more details about this
occurrence. After attempting to investigate, Byrd tried
to leave the parking lot of the bar, but he was prevented by Eric’s father, Agent Ray Lamb.
Byrd alleges that Agent Lamb physically threatened him with a gun, and verbally threatened to “put
a bullet through his f–king skull” and that “he would
blow his head off.” Byrd further alleges that Agent
Lamb attempted to smash the window of his car and
left marks and scratches on his window.
Shortly after the incident began, Byrd called for
police assistance. Two local officers arrived at the
scene. Byrd contends that upon the officers’ arrival,

3a
Appendix A
Agent Lamb identified himself as a federal agent for
the Department of Homeland Security, and one of the
officers immediately handcuffed and detained Byrd for
nearly four hours.
After reviewing surveillance footage, the officers
released Byrd. Shortly thereafter, Agent Lamb was arrested and taken into custody for aggravated assault
with a deadly weapon and misdemeanor criminal mischief.
Byrd filed a Bivens action against Agent Lamb alleging use of excessive force to effectuate an unlawful
seizure and filed a 42 U.S.C. § 1983 action against the
two local officers for unlawfully detaining him. Agent
Lamb and the local officers filed motions to dismiss
pursuant to Federal Rule of Civil Procedure 12(b)(6)
raising the defense of qualified immunity. Agent Lamb
also argued that he had reasonable suspicion of Byrd’s
criminal activity, including harassment and stalking of
Lamb’s son. The district court granted the officers’ motions to dismiss but denied Agent Lamb’s motion to dismiss.
Agent Lamb timely appealed.
II.
“We review the district court’s denial of the qualified immunity defense de novo, accepting all wellpleaded facts as true and viewing them in the light
most favorable to the plaintiff.” Brown v. Miller, 519

4a
Appendix A
F.3d 231, 236 (5th Cir. 2008). “Our jurisdiction over
qualified immunity appeals extends to ‘elements of
the asserted cause of action’ that are ‘directly implicated by the defense of qualified immunity[,]’ including
whether to recognize new Bivens claims.” De La Paz v.
Coy, 786 F.3d 367, 371 (5th Cir. 2015) (quoting Wilkie
v. Robbins, 551 U.S. 537, 549 n.4 (2007)).
The Supreme Court has stated that “the Bivens
question” is “antecedent” to the question of qualified
immunity. Hernandez v. Mesa (Hernandez I), 137 S. Ct.
2003, 2006 (2017). In Bivens, the Supreme Court recognized an implied right of action for damages against
federal officers alleged to have violated a citizen’s
constitutional rights. Bivens v. Six Unknown Named
Agents of Fed. Bureau of Narcotics, 403 U.S. 388, 397
(1971).
The Supreme Court has cautioned against extending Bivens to new contexts. See Hernandez v. Mesa
(Hernandez II), 140 S. Ct. 735, 744 (2020) (holding that
the plaintiff ’s Bivens claim arose in a new context, and
factors, including the potential effect on foreign relations, counseled hesitation with respect to extending
Bivens); Ziglar v. Abbasi, 137 S. Ct. 1843, 1861 (2017)
(holding that plaintiff ’s detention-policy claims arose
in a new Bivens context, and factors, such as interfering with sensitive Executive-Branch functions
and inquiring into national-security issues, counseled
against extending Bivens). In fact, the Supreme Court
has gone so far as to say that extending Bivens to new
contexts is a “ ‘disfavored’ judicial activity.” Abbasi, 137

5a
Appendix A
S. Ct. at 1857 (quoting Ashcroft v. Iqbal, 556 U.S. 662,
675 (2009)).
The Supreme Court has provided a two-part test
to determine when extension would be appropriate.
First, courts should consider whether the case before it
presents a “new context.” Hernandez II, 140 S. Ct. at
743. Only where a claim arises in a new context should
courts then proceed to the second step of the inquiry,
and contemplate whether there are “any special factors that counsel hesitation about granting the extension.” Id. (cleaned up). Some recognized special factors
to consider include: whether there is a “risk of interfering with the authority of the other branches,” whether
“there are sound reasons to think Congress might
doubt the efficacy or necessity of a damages remedy,”
and “whether the Judiciary is well suited, absent congressional action or instruction, to consider and weigh
the costs and benefits of allowing a damages action to
proceed.” Id. “When a party seeks to assert an implied
cause of action under the Constitution,” as in this case,
“separation-of-powers principles . . . should be central
to the analysis.” Abbasi, 137 S. Ct. at 1857.
We recently addressed the extension of Bivens in
Oliva v. Nivar, 973 F.3d 438. In that case, an altercation arose between police officers in a Veterans Affairs
(VA) hospital and Oliva over hospital ID policy. Id. at
440. The VA officer wrestled Oliva to the ground in a
chokehold and arrested him. Id. We concluded that
Oliva’ s Fourth Amendment claim for use of excessive
force arose in a new context. Id. at 443.

6a
Appendix A
In ruling in this case, the conscientious district
court judge did not have the benefit of our decision in
Oliva and Agent Lamb’s attorney did not even raise
the Bivens issue in the district court. Nevertheless, we
must address it here. In Oliva, we held that Bivens
claims are limited to three situations. First, “manacling the plaintiff in front of his family in his home and
strip-searching him in violation of the Fourth Amendment.” Id. at 442 (citing Bivens, 403 U.S. at 389–90).
Second, “discrimination on the basis of sex by a congressman against a staff person in violation of the
Fifth Amendment.” Id. (citing Davis v. Passman, 442
U.S. 228 (1979)). Third, “failure to provide medical attention to an asthmatic prisoner in federal custody in
violation of the Eighth Amendment.” Id. (citing Carlson v. Green, 446 U.S. 14 (1980)). “Virtually everything
else is a ‘new context.’ ” Id. (quoting Abbasi, 137 S. Ct.
at 1865).
To determine whether Byrd’s case presents a new
context, we must determine whether his case falls
squarely into one of the established Bivens categories,
or if it is “different in a meaningful way from previous
Bivens cases decided by [the Supreme] Court.” Id. at
442 (quoting Abbasi, 137 S. Ct. at 1859).
Here, although Byrd alleges violations of the
Fourth Amendment, as did the plaintiff in Bivens,
Byrd’s lawsuit differs from Bivens in several meaningful ways. This case arose in a parking lot, not a private
home as was the case in Bivens. 403 U.S. at 389. Agent
Lamb prevented Byrd from leaving the parking lot; he

7a
Appendix A
was not making a warrantless search for narcotics in
Byrd’s home, as was the case in Bivens. Id. The incident
between the two parties involved Agent Lamb’s suspicion of Byrd harassing and stalking his son, not a narcotics investigation as was the case in Bivens. Id. Agent
Lamb did not manacle Byrd in front of his family, nor
strip-search him, as was the case in Bivens. Id. Nor did
Lamb discriminate based on sex like in Davis, 442 U.S.
at 230. Nor did he fail to provide medical attention like
in Carlson, 446 U.S. at 23–24. As explained in Oliva,
Byrd’s case presents a new context.
We must also determine whether any special factors counsel against extending Bivens. Here, as in
Oliva, separation of powers counsels against extending
Bivens. Oliva, 973 F.3d at 444. Congress did not make
individual officers statutorily liable for excessive-force
or unlawful-detention claims, and the “silence of Congress is relevant.” Abbasi, 137 S. Ct. at 1862. This special factor gives us “reason to pause” before extending
Bivens. Hernandez II, 140 S. Ct. at 743.
For these reasons, we reject Byrd’s request to extend Bivens. Because we do not extend Bivens to Byrd’s
lawsuit, we need not address whether Agent Lamb is
entitled to qualified immunity.
III.
We REVERSE and REMAND with instructions to
dismiss the claims against federal Agent Ray Lamb.

8a
Appendix A
DON R. WILLETT, Circuit Judge, specially concurring:
The majority opinion correctly denies Bivens relief.
Middle-management circuit judges must salute
smartly and follow precedent. And today’s result is
precedentially inescapable: Private citizens who are
brutalized—even killed—by rogue federal officers can
find little solace in Bivens.
Between 1971 and 1980, the Supreme Court recognized a Bivens claim in three different cases, involving three different constitutional violations under the
Fourth, Fifth, and Eighth Amendments.1 Those nine
years represent the entire lifespan of Bivens. For four
decades now, the Supreme Court, while stopping short
of overruling Bivens, has “cabined the doctrine’s scope,
undermined its foundation, and limited its precedential value.”2 Since 1980, the Supreme Court has “consistently rebuffed” pleas to extend Bivens, even going
so far as to suggest that the Court’s Bivens trilogy was

1

See Bivens v. Six Unknown Named Agents of Fed. Bureau
of Narcotics, 403 U.S. 388, 389–90 (1971) (strip search in violation
of the Fourth Amendment); Davis v. Passman, 442 U.S. 228
(1979) (discrimination on the basis of sex in violation of the Fifth
Amendment); Carlson v. Green, 446 U.S. 14 (1980) (failure to provide medical attention to a prisoner in violation of the Eighth
Amendment).
2
Hernandez v. Mesa, 140 S. Ct. 735, 751 (2020) (Thomas, J.,
concurring).

9a
Appendix A
wrongly decided.3 The Bivens doctrine, if not overruled,
has certainly been overtaken.
Our recent decision in Oliva v. Nivar erases any
doubt.4 José Oliva was a 70-year-old Vietnam veteran
who was choked and assaulted by federal police in an
unprovoked attack at a VA hospital. The Oliva panel
isolated the precise facts of the three Supreme Court
cases that recognized Bivens liability,5 quoted the
Court’s recent admonition that extending Bivens was
“disfavored judicial activity,”6 and concluded that Oliva
had no constitutional remedy. “Virtually everything”
beyond the specific facts of the Bivens trilogy “is a ‘new
context,’ ” the panel held.7 And new context = no Bivens
claim.
My big-picture concern as a federal judge—indeed,
as an everyday citizen—is this: If Bivens is off the table, whether formally or functionally, and if the Westfall Act preempts all previously available state-law
constitutional tort claims against federal officers acting within the scope of their employment,8 do victims
3

Id. at 743.
973 F.3d 438 (5th Cir. 2020).
5
Id. at 442.
6
Id. (quoting Ziglar v. Abbasi, 137 S. Ct. 1843, 1857 (2017)).
7
973 F.3d at 442.
8
28 U.S.C. § 2679(b). The Federal Tort Claims Act does
waive the United States’ sovereign immunity for certain intentional torts—but not for excessive-force claims against individual
federal officers. For victims like José Oliva, Congress offers no
protection at all; indeed, it has removed protection. Hernandez,
4

10a
Appendix A
of unconstitutional conduct have any judicial forum
whatsoever? Are all courthouse doors—both state and
federal—slammed shut? If so, and leaving aside the serious constitutional concerns that would raise, does
such wholesale immunity induce impunity, giving the
federal government a pass to commit one-off constitutional violations?
Chief Justice John Marshall warned in 1803 that
when the law no longer furnishes a “remedy for the
violation of a vested legal right,” the United States
“cease[s] to deserve th[e] high appellation” of being
called “a government of laws, and not of men.”9 Fast
forward two centuries, and redress for a federal officer’s unconstitutional acts is either extremely limited
or wholly nonexistent, allowing federal officials to operate in something resembling a Constitution-free
zone. Bivens today is essentially a relic, technically on
the books but practically a dead letter, meaning this: If
you wear a federal badge, you can inflict excessive force
on someone with little fear of liability.
At bottom, Bivens poses the age-old structural
question of American government: who decides—the
140 S. Ct. at 752 (Thomas, J., concurring). Beyond providing no
federal-officer corollary to § 1983, Congress “has pre-empted the
state tort suits that traditionally served as the mechanism by
which damages were recovered from federal officers.” Id. (citing
the Westfall Act, 28 U.S.C. § 2679(b)). For Oliva, as for many victims of unconstitutional conduct at the hands of federal officers,
it’s Bivens or nothing.
9
Marbury v. Madison, 5 U.S. 137, 163 (1803).

11a
Appendix A
judiciary, by creating implied damages actions for constitutional torts, or Congress, by reclaiming its lawmaking prerogative to codify a Bivens-type remedy (or
by nixing the preemption of state-law tort suits against
federal officers)? Justices Thomas and Gorsuch have
called for Bivens to be overruled, contending it lacks
any historical basis.10 Some constitutional scholars
counter that judge-made tort remedies against lawless
federal officers date back to the Founding.11 Putting
that debate aside, Congress certainly knows how to
provide a damages action for unconstitutional conduct. Wrongs inflicted by state officers are covered by
§ 1983. But wrongs inflicted by federal officers are not
similarly righted, leaving constitutional interests violated but not vindicated. And it certainly smacks of
10

Hernandez, 140 S. Ct. at 750–53 (Thomas, J., concurring,
joined by Gorsuch, J.).
11
See James E. Pfander & David Baltmanis, Rethinking Bivens:
Legitimacy and Constitutional Adjudication, 98 GEORGETOWN L.
J. 117, 134 (2009); see also Carlos M. Vazquez & Steven I. Vladeck, State Law, the Westfall Act, and the Nature of the Bivens
Question, 161 U. PA. L. REV. 509, 532 (2013); Sina Kian, The Path
of the Constitution: The Original System of Remedies, How it
Changed, and How the Court Responded, 87 N.Y.U. L. REV. 132,
144 (2012); Peter Margulies, Curbing Remedies for Official
Wrongs: The Need for Bivens Suits in National Security Cases, 68
CASE W. RES. L. REV. 1153, 1156–64 (2018); Steven I. Vladeck, Supreme Court Review, CATO INSTITUTE, https://www.cato.org/sites/
cato.org/files/2020-09/2020-supreme-court-review-10_vladeck.pdf;
James E. Pfander, Alexander A. Reinert, Joanna C. Schwartz,
The Myth of Personal Liability: Who Pays When Bivens Claims
Succeed, 72 STAN. L. REV. 561, 569 (2020); Brief Amicus Curiae of
Douglas Laycock, James E. Pfander, Alexander A. Reinert and
Joanna C. Schwartz, Hernandez v. Mesa, 140 S. Ct. 735 (2020).

12a
Appendix A
self-dealing when Congress subjects state and local
officials to money damages for violating the Constitution but gives a pass to rogue federal officials who
do the same. Such imbalance—denying federal remedies while preempting nonfederal remedies—seems
innately unjust.
I am certainly not the first to express unease
that individuals whose constitutional rights are violated at the hands of federal officers are essentially
remedy-less.12 A written constitution is mere meringue
when rights can be violated with nonchalance. I add
my voice to those lamenting today’s rights-withoutremedies regime, hoping (against hope) that as the
chorus grows louder, change comes sooner.

12
See Marbury, 5 U.S. at 163 (noting the “general and indisputable rule, that where there is a legal right, there is also a legal
remedy”) (quoting 3 WILLIAM BLACKSTONE, COMMENTARIES, 23); see
also Joan Steinman, Backing Off Bivens and the Ramifications of
This Retreat for the Vindication of First Amendment Rights, 83
MICH. L. REV. 269 (1984); Betsy J. Grey, Preemption of Bivens
Claims: How Clearly Must Congress Speak?, 70 WASH. U. L.Q.
1087, 1127 (1992); Joanna C. Schwartz, Alexander A. Reinert,
and James E. Pfander, Going Rogue: The Supreme Court’s Newfound Hostility to Policy-Based Bivens Claims, NOTRE DAME L.
REV., Forthcoming 2021, https://ssrn.com/abstract=3778230;
William Baude, Bivens Liability and its Alternatives, https://
www.summarycommajudgment.com/blog/a-few-thoughts-aboutbivens-liability.

13a
Appendix B
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
.
.
PLAINTIFF,
.
VS.
.
.
RAY LAMB, KOSKA,
.
AND W. LINDEMANN,
.
DEFENDANTS.
.
........................ .
KEVIN BYRD,

4:19-CV-3014
HOUSTON, TEXAS
FEBRUARY 20, 2020
2:36 P.M.

TRANSCRIPT OF MOTION HEARING
BEFORE THE HONORABLE KEITH P. ELLISON
UNITED STATES DISTRICT JUDGE
APPEARANCES
FOR THE PLAINTIFF:

Appearing by telephone

Keith Altman
EXCOLO LAW PLLC
26700 Lahser Road
Suite 401
Southfield, Michigan 48033
FOR DEFENDANT RAY LAMB:
Andrew J. Willey
DREW WILLEY LAW
Post Office Box 2813
Houston, Texas 77252

14a
Appendix B
APPEARANCES – CONTINUED
FOR DEFENDANTS KOSKA AND LINDEMANN:
Steven D. Selbe
Allison K. Wells
GORDON REES SCULLY MANSUKHANI LLP
1900 West Loop South
Suite 1000
Houston, Texas 77027
OFFICIAL COURT REPORTER:
Mayra Malone, CSR, RMR, CRR
U.S. Courthouse
515 Rusk
Room 8004
Houston, Texas 77002
713-250-5787
Proceedings recorded by mechanical stenography.
Transcript produced by computer-aided transcription.
PROCEEDINGS
THE COURT: I know you’ve been through it
for Ms. Malone, but for my benefit, we are going to do
appearances of counsel in Byrd versus Lamb. We will
start with plaintiffs.
MR. ALTMAN: Keith Altman on behalf of
the plaintiffs. I apologize. I have not entered an appearance and not pro hac vice in this case, but Mr. Radner,
my colleague, got stuck in trial and could not break
away to be on the call today. And so I apologize and I

15a
Appendix B
hope that the Court will allow me this brief, temporary
appearance.
THE COURT:
appearance?
MR. ALTMAN:
THE COURT:
fendants?

You will be filing your entry of
Yes, I will be.
Okay. All right. For the de-

MR. SELBE: Your Honor, Steven Selbe and
Allison Wells for Officers Koska and Lindemann.
THE COURT:

Welcome.

MR. WILLEY:

Drew Willey for Ray Lamb.

THE COURT: We have two motions from
Moss or Lamb. One is the motion to dismiss and one is
the motion for leave to file a third party complaint. I
have read the papers. You needn’t repeat anything in
the papers.
Does Officer Lamb wish to add to anything that’s
in the papers?
Please identify yourself for those on the phone because Mr. Altman -- he won’t be able to tell who is
speaking.
MR. WILLEY:
Willey speaking.

Yes, Your Honor. This is Drew

Just a few things to highlight for the Court. First,
specifically on the de minimus injuries, in the response

16a
Appendix B
to -- plaintiff ’s response to our motion to dismiss, they
indicated that they did allege psychological injuries. I
would contest that those allegations were merely conclusory. They just make the blanket statement that
there were psychological injuries and mental distress
and, you know, three or four other things. They don’t
actually say what those injuries are, and Texas state
law often recognizes that psychological, emotional distress -THE COURT: Well, let’s see. If we take
plaintiff ’s allegations as true, which we must at this
stage, he says that Defendant Lamb pointed his gun at
Mr. Byrd, threatened to kill him, attempted to shoot
him without any indication that the plaintiff had done
or was about to do anything unlawful, causing plaintiff
emotional harm. That is sufficiently specific, isn’t it?
Wouldn’t all of us be harmed emotionally if a gun was
pointed at us and the trigger was pulled?
MR. WILLEY: I would ordinarily say yes,
but that’s not alleged. And so, yes, if we are going by
the four corners of the complaint, then, yeah, common
sense, maybe that’s in there, but they did not allege it.
And so the complaint as written does not meet the de
minimus injury requirements for that.
There is also paragraph 66, Your Honor, where they
state, As a proximate result, the plaintiff was harmed
and suffered damages for his physical, mental, emotional injury and pain, fright and shock, mental anguish, humiliation and embarrassment. My contention

17a
Appendix B
is just that those are all conclusory, and there is not
any mention of what the result of that was, not to mention that there was no physical manifestation of any of
those alleged nonphysical injuries.
THE COURT: Okay. Let’s see. It is alleged
that Defendant Ray Lamb jumped out of his truck,
threatened Mr. Byrd with a gun, yelled he would,
quote, put a bullet through Mr. Byrd’s fucking skull.
Defendant Lamb continued to yell that he was a
federal agent and instructed Mr. Byrd to roll down his
window or he would blow his head off. With his gun
drawn at Mr. Byrd, Defendant Lamb stepped in front
of Mr. Byrd’s car to prevent him from driving away. He
attempted to smash the window of Mr. Byrd’s car on
two occasions. He strikes the window of the car and he
attempted to pull the trigger of the gun. The bullet fell
out or became dislodged. When the police arrived, they
handcuffed Mr. Byrd for several hours and refused to
loosen the handcuffs or allow Mr. Byrd to use the restroom, despite his pleas.
MR. WILLEY:
fendants.

That speaks to the other de-

THE COURT REPORTER:
did you say?
THE COURT:
other defendants.

I’m sorry. What

He said that referred to the

18a
Appendix B
After the incident, Mr. Byrd received threatening
phone calls believed to be from Defendant Lamb’s son,
claiming, quote, he doesn’t know who he has fucked
with.
Surely that’s enough to present emotional harm.
No?
MR. WILLEY: Your Honor, I’m saying that
that presumption is one thing. He controls the complaint and he controls what you are looking at on there.
And if he wanted to allege specific injuries resulting
from those facts, then he very well could have, but
plaintiff failed to do so.
THE COURT:

Would plaintiff like to re-

spond?
MR. ALTMAN: Sure, Your Honor. I just
think the whole concept of conclusory allegations is
where he is just filling in the four corners of like the
pattern -- you know, the elements of a claim. Clearly,
as Your Honor read, there was an explicit and frankly
obscene detail of exactly what took place here. And as
Your Honor clearly said, that certainly allows a reasonable inference that these are called damages. I don’t
think there is any requirement at this time that the
damages have to be specified with particularity in that
way. He suffered, you know, emotional harm as a result
of these very explicit actions. Clearly that is sufficient
at this stage of the litigation at the motion to dismiss
stage to -- for denial of the motion to dismiss.

19a
Appendix B
MR. WILLEY:

May I respond?

THE COURT:

Yes. Certainly.

MR. WILLEY: Just to make things abundantly clear, I was speaking specifically not about damages. I was speaking specifically to the issue of de
minimus injuries and the requirement to claim injuries that are more than de minimus.
In that respect, I understand that given the facts
that he laid out -- I believe plaintiff ’s counsel called
them obscene, detailed facts. While those are true, he
still has to allege more than de minimus injuries.
THE COURT: The Fifth Circuit in Checki
versus Webb. That is spelled C-H-E-C-K-I versus
Webb, W-E-B-B, said, quote: A police officer who terrorizes a civilian by brandishing a cocked gun in front of
a civilian’s face may not cause physical injury but he
has certainly laid the building blocks for a Section
1983 claim against him, end quote.
Quote: There is no valid reason for insisting on
physical injury for a Section 1983 claim can be stated
in this context.
I think it’s sufficient. All these are just allegations
right now, and we have to defer until summary judgment for further factual development, but I think the
complaint passes muster at this stage. So I’m going to
deny the motion to dismiss.

20a
Appendix B
Now, on the motion for leave to file a third party
complaint -- maybe I’m mistaken about the purpose of
a third party complaint, but I authority authorities
were clear, including Dwight and Miller, that Rule 14
is for a defendant who is trying to transfer to a third
party the liability that’s asserted against the defendant by the original plaintiff. The fact that it’s from the
same transaction, the same constellation of facts
doesn’t seem to me enough, but tell me where I’m
wrong.
MR. WILLEY: Yes, Your Honor. To the extent
there is a procedural way to get this separate complaint in and the way -- the case law and my interpretation of Rule 14 was that in order to get new
defendants in to this claim, that this was the correct
procedure to do so.
THE COURT: Well, let’s see. The relevant -in Southeast Mortgage Company versus Mullins -Mullins is M-U-L-L-I-N-S -- the Fifth Circuit said,
The entirely separate independent claim cannot be
maintained against a third party under Rule 14 even
though it does arise out of the same general set of facts
as the main claim, and I think that’s what is happening
here. And I’m going to have to deny that motion too.
I’m very sorry.
The whole quiver of allegations and claims for relief are terribly unnecessary. I think this all could have
been settled with a round of handshakes and a few
apologies, but that’s out of my control.

21a
Appendix B
MR. WILLEY:
the motion for leave --

Your Honor, you’ll be denying

THE COURT:
motions. Yes.

I’m afraid I need to deny both

MR. WILLEY:

As to all new parties, both the

city -THE COURT: The complaint is denied. You
might be able to draft a different complaint that would
pass Rule 14 muster, but the complaint as proposed is
not going to be allowed. If you can say this was not officer -- none of this has to do with Officer Lamb, in fact,
the real culprit was police Lieutenant Smith, that’s the
kind of thing that I could allow.
MR. WILLEY:
THE COURT:
because I’m not --

Officer Phillips?
I made up the name Smith

MR. WILLEY: I know, but I’m saying, he was
-- what you’re saying is Officer -THE COURT: You need to file a complaint
that says that then, not sue the City of Conroe and who
all else you have sued.
Do y’all wish to be heard?
MR. SELBE:
MR. ALTMAN:
THE COURT:

No, Your Honor.
Your Honor -Go ahead. We can hear you.

22a
Appendix B
MR. ALTMAN: Your Honor, I didn’t have anything to say, so that’s all I was going to say.
THE COURT: This is very atypical of lawyers not to have anything to say.
(Laughter)
THE COURT: Thank you all very much. You
are excused. Thank you.
MR. ALTMAN:

Thank you, Your Honor.

(Court adjourned at 2:48 p.m.)
****
I certify that the foregoing is a correct transcript
from the record of proceedings in the above-entitled
cause.
Date:

May 6, 2020
/s/ Mayra Malone
Mayra Malone, CSR, RMR, CRR
Official Court Reporter

23a
Appendix C
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
KEVIN BYRD
Case No. 4:19-cv-03014

Plaintiff,
v.
AGENT RAY LAMB;
OFFICER KOSKA; and
OFFICER W. LINDEMANN,
Defendants,

/

PLAINTIFF’S RESPONSE IN
OPPOSITION TO DEFENDANT
RAY LAMB’S MOTION TO DISMISS
NOW COMES Plaintiff, Kevin Byrd, by and
through counsel, and files this response to Defendant
Ray Lamb’s Motion to Dismiss. For the reasons stated
herein, Plaintiff respectfully requests this Honorable
Court deny Defendant’s motion.
STATEMENT OF ISSUE PRESENTED
Whether Plaintiff has alleged sufficient facts to
state a claim against Defendant Lamb for excessive
force and unlawful detention/seizure where Plaintiff
has alleged, among other things, that Defendant Lamb
held him at gunpoint, physically prevented him from
leaving the parking lot, threatened to kill and attempted to shoot Plaintiff.

24a
Appendix C
STATEMENT OF FACTS
On February 2, 2019, Kevin Byrd, (“Mr. Byrd”
or “Plaintiff ”) was at the hospital visiting his exgirlfriend, Ms. Darci Wade, who had sustained injuries
in a car accident. (ECF # 1, ¶ 12). Mr. Byrd had been
summoned to the hospital by Ms. Wade specifically requesting his presence. (Id. at ¶ 13). While at the hospital, Mr. Byrd learned about the accident and later left
the hospital to check on Ms. Wade’s pets. (Id. at ¶ 16).
On his way, Mr. Byrd was informed that before the accident, Ms. Wade and Mr. Eric Lamb, who was with her
and driving the car when it collided with a parked bus
on the side of the road, were kicked out of a local establishment. (Id. at ¶ 17, 14). Mr. Byrd then drove to the
establishment to inquire about the incident. (Id. at
¶ 18). After not being able to speak to a manager, Mr.
Byrd attempted to leave the parking lot. (Id. at ¶ 19,
21). As Mr. Byrd went to drive away, he noticed someone inside of the red truck parked in the parking lot.
(Id. at ¶ 22). Mr. Byrd thought this truck might belong
to Eric Lamb. (Id. at ¶¶ 14, 17, 20, 22). Eric Lamb’s father, Defendant Ray Lamb, immediately jumped out of
the truck and threatened Mr. Byrd with a gun and
yelled that he would “put a bullet through [Mr. Byrd]’s
fucking skull.” (Id. at ¶ 23). Defendant Lamb continued
to yell that he was a federal agent and instructed Mr.
Byrd to roll down his window or he would blow his
head off. (Id. at ¶ 24). With his gun drawn at Mr. Byrd,
Defendant Lamb stepped in front of Mr. Byrd’s car to
prevent him from driving away, attempted to smash

25a
Appendix C
the window of Mr. Byrd’s car on two occasions, struck
the window of the car, and attempted to pull the trigger
of this gun at Mr. Byrd but the bullet fell out or became
dislodged instead of discharging at Mr. Byrd. (Id. at
¶ 25-28). At this point, Mr. Byrd called the police himself for assistance in dealing with Defendant Lamb.
(Id. at ¶ 29).
When the police arrived, they handcuffed Mr. Byrd
for several hours, and refused to loosen the handcuffs
or allow Mr. Byrd to use the restroom, despite his pleas.
(Id. at ¶ 31-36). After the police arrived, Defendant
Lamb’s wife exited the vehicle and picked up the dislodged bullets that fell from her husband’s gun and
placed them in her car. (Id. at ¶ 37). Sometime later,
another officer showed up and began to conduct an investigation. (Id. at ¶ 38). Mr. Byrd told the officer what
happened and told him to check the surveillance videos
of the parking lot to confirm his story. (Id. at ¶ 39). After watching the surveillance video, Mr. Byrd was released, and the officer told Mr. Byrd that he was free to
stay while he finished his investigation of Defendant
Lamb. (Id. at ¶ 40). Mr. Byrd told the officer that he
wished to press charges against Defendant Lamb. (Id.
at ¶ 41). The other police officers then told Mr. Byrd
that he was not free to stay at the scene and needed
to leave. (Id. at ¶ 42). Out of concerns for his safety,
having heard different instructions from different officers, Mr. Byrd left the parking lot. (Id. at ¶ 43). While
Mr. Byrd was not charged with any crimes as a result
of this incident with Defendant Lamb, Lamb was

26a
Appendix C
arrested and taken into custody for Aggravated Assault with a Deadly Weapon and Misdemeanor Criminal Mischief. (Id. at ¶ 44).
After Defendant Lamb was arrested, either Defendant Lamb, his wife, or his son, attempted to file
harassment charges against Mr. Byrd. These harassment charges were rejected. (Id. at ¶ 46). After the incident, Mr. Byrd received threatening phone calls,
believed to be from Defendant Lamb’s son, stating that
“he doesn’t know who he has nicked with.” (Id. at ¶ 45).
There was no lawful basis for Defendant Lamb to
point his weapon at Mr. Byrd and detain him at gunpoint, to threaten Mr. Byrd that he would “put a bullet
through his fucking skull,” or “blow his head off,” or for
Defendant Lamb to attempt to shoot or to threaten to
kill Mr. Byrd. (Id. at ¶ 23-24, 28, 48, 63).
STANDARD OF REVIEW
“To survive a Rule 12(b)(6) motion to dismiss, a
complaint ‘does not need detailed factual allegations,’
but must provide the plaintiffs grounds for entitlement
to relief—including factual allegations that when assumed to be true ‘raise a right to relief above the speculative level.’ ” Cuvillier v. Taylor, 503 F.3d 397, 401
(5th Cir. 2007) (quoting Bell Atl. Corp. v. Twombly, 550
U.S. 544, 555, 127 S. Ct. 1955, 167 L.Ed.2d 929 (2007)).
That is, “a complaint must contain sufficient factual
matter, accepted as true, to ‘state a claim to relief that
is plausible on its face.’ ” Ashcroft v. Iqbal, 556 U.S. 662,

27a
Appendix C
129 S. Ct. 1937, 1949, 173 L.Ed.2d 868 (2009) (quoting
Twombly, at 570). A claim has facial plausibility “when
the plaintiff pleads factual content that allows the
court to draw the reasonable inference that the defendant is liable for the misconduct alleged.” Id. (citing
Twombly, at 556). The court’s task is “to determine
whether the plaintiff has stated a legally cognizable
claim that is plausible, not to evaluate the plaintiff ’s
likelihood of success.” Doe ex rel. Magee v. Covington
Cty. Sch. Dist., 675 F.3d 849, 854 (5th Cir. 2012). “Determining whether a complaint states a plausible
claim for relief . . . requires the reviewing court to draw
on its judicial experience and common sense.” Iqbal,
556 U.S. at 679.
In deciding a 12(b)(6) motion, the court “must accept all well-pleaded facts as true, draw all inferences
in favor of the nonmoving party, and view all facts and
inferences in the light most favorable to the nonmoving party.” Club Retro, L.L.C., v. Hilton, 568 F.3d 181,
194 (5th Cir. 2009). “[A] well-pleaded complaint may
proceed even if it strikes a savvy judge that actual
proof of those facts is improbable, and that a recovery
is very remote and unlikely.” Twombly, 550 U.S. at 556
(internal quotations and citations omitted). “Iqbal does
not allow us to question the credibility of the facts
pleaded . . . . Iqbal, instead, tells us to assume the veracity of well-pleaded factual allegations.” Ramirez v.
Escajeda, 921 F.3d 497, 501 (5th Cir. 2019) (internal
quotations omitted). “Finally, motions to dismiss under
Rule 12(b)(6) “are viewed with disfavor and are rarely

28a
Appendix C
granted.” Lormand v. U.S. Unwired, Inc., 565 F.3d 228,
231 (5th Cir. 2009) (internal citation omitted).
LAW & ARGUMENT
I.

DEFENDANT LAMB IS NOT ENTITLED TO
QUALIFIED IMMUNITY ON PLAINTIFF’S
CLAIMS OF EXCESSIVE FORCE AND UNLAWFUL DETENTION

“A public official is entitled to qualified immunity
unless a plaintiff can show (1) that the official violated
a statutory or constitutional right, and (2) that the
right was ‘clearly established’ at the time of the challenged conduct.” Gerhart v. McLendon, 714 Fed. Appx.
327, 333 (5th Cir. 2017) (citing Ashcroft v. al-Kidd, 563
U.S. 731, 735 (2011) (unpublished, Exhibit 1). As “an
affirmative defense, the defendant must both plead
and establish his entitlement to immunity.” Holland v.
City of Houston, 41 F. Supp. 2d 678, 695 (S.D. Tex.
1999).
a. Constitutional Violation – Excessive Force
As pronounced by the Fifth Circuit long ago, “[a]
police officer who terrorizes a civilian by brandishing
a cocked gun in front of that civilian’s face may not
cause physical injury, but he has certainly laid the
building blocks for a section 1983 claim against him.”
Checki v. Webb, 785 F.2d 534, 538 (5th Cir. 1986). Since
then, the 5th Circuit has established that “psychological,” and not just physical “injuries may sustain

29a
Appendix C
a Fourth amendment claim.” Flores v. City of Palacios,
381 F.3d 391, 397-398 (5th Cir. 2004). “Any force found
to be objectively unreasonable exceeds the de minimis
threshold, and, conversely, objectively reasonable force
will result in de minimis injuries only.” Alexander v.
City of Round Rock, 854 F.3d 298, 309 (5th Cir. 2017).
Accordingly, the “sufficiency of a plaintiff ’s injury
turns not on the severity of the injury, but on the reasonableness of the officer’s use of force.” Scott v. White,
2018 U.S. Dist. LEXIS 73907, at *15 (W.D. Tex. Apr. 30,
2018). As summarized by a district court in the case
Bernard v. Maine, 2019 U.S. Dist. LEXIS 467705, at
*23 (D. Me. March 22, 2019), it is established throughout the circuits that an officer’s act of pointing weapons
at civilians can amount to unconstitutional excessive
force under the Fourth Amendment:
Under certain circumstances, police use of
force “may be unreasonable under the Fourth
Amendment even if officers do no more than
threaten the occupants with firearms.” Terebesi v. Torreso, 764 F.3d 217, 240 (2d Cir.
2014). “[P]ointing a loaded gun at a suspect,
employing the threat of deadly force, is use of
a high level of force.” Espinosa v. City & Cty.
of San Francisco, 598 F.3d 528, 537 (9th Cir.
2010). “While police are not entitled to point
their guns at citizens when there is no hint of
danger, they are allowed to do so when there
is reason to fear danger.” Baird v. Renbarger,
576 F.3d 340, 346 (7th Cir. 2009). “The display
of weapons, and the pointing of firearms directly at persons inescapably involves the

30a
Appendix C
immediate threat of deadly force. Such a show
of force should be predicated on at least a perceived risk of injury or danger to the officers
or others, based upon what the officers know
at that time.” Holland ex rel. Overdorff v. Harrington, 268 F.3d 1179, 1192-93 (10th Cir.
2001); see also Mlodzinski v. Lewis, 648 F.3d
24, 37-40 (1st Cir. 2011) (applying the Graham factors to an officer’s conduct in pointing
a weapon); Stamps, 813 F.3d at 40-41 (same).
Further, “[o]ther circuits also have recognized excessive-force claims without physical contact and
therefore rejected qualified immunity defenses under
circumstances similar to those here.” Merrill v. Schell,
279 F. Supp. 3d 438, 447-49 (W.D.N.Y. 2017). “For example, the Seventh and Ninth Circuits have found that
pointing a gun at a suspect when he or she does not
present any significant danger to officers may constitute an unreasonable use of force under the Fourth
Amendment.” Id. (collecting cases). Similarly, “[o]ther
circuits have also held that pointing guns at persons
who are compliant and present no danger is a constitutional violation.” Baird v. Renbarger, 578 F.3d 340,
346 (7th Cir. 2009) (citing Robinson v. Solano County,
278 F.3d 1007, 1015-16 (9th Cir. 2002) (en banc) (pointing a gun at an unarmed suspect who poses no danger
constitutes excessive force); Baker v. Monroe Township,
50 F.3d 1186, 1193-94 (3d Cir. 1995) (detention at gunpoint violated the Fourth Amendment as there was
“simply no evidence of anything that should have

31a
Appendix C
caused the officers to use the kind of force they are alleged to have used”).
District courts in this circuit have specifically entertained claims of excessive force where police officers
unreasonably hold citizens at gunpoint and point
weapons in their face without a lawful basis and without a physical injury sustained. See Manis v. Cohen,
2001 U.S. Dist. LEXIS 19453, at *24-27 (N.D. Tex. Nov.
28, 2001); Hodge v. Layrisson, 1998 U.S. Dist. LEXIS
13930, at *17-19 (E.D. La. Aug. 31, 1998). Both Manis
and Hodge courts explained that physical injury is no
longer required to maintain an excessive force claim,
an emotional or psychological injury may suffice to
support this constitutional claim.
In Davenport v. Rodriguez, 147 F. Supp. 2d 630,
637 (S.D. Tex. 2001), the district court dismissed the
plaintiff ’s excessive force claim finding her allegations
that the officers act of handcuffing her and “shoving”
her into a police car to not allege an excessive force
claim. In finding the plaintiff did not state a claim the
court wrote: “Had Plaintiff alleged that she was handcuffed too tightly, for instance, or that the officer had
pointed a gun and threatened to shoot while she was
being arrested, she may have stated a claim.” Id. (citing
Thompson v. City of Galveston, 979 F. Supp. 504, 509510 (S.D.Tex.1997), aff ’d 158 F.3d 583 (5th Cir. 1998)
(finding that an action might lie for excessive force for
a police officer holding a gun to the head of a nine-yearold and threatening to pull the trigger)).

32a
Appendix C
“In order to state a claim for excessive force in violation of the constitution, a plaintiff must allege
(1) an injury, which (2) resulted directly and only from
the use of force that was clearly excessive to the need;
and the excessiveness of which was (3) objectively unreasonable.” Manis, at *22. “The amount of injury necessary to satisfy the Fifth Circuit’s requirement of
‘some injury’ and establish a constitutional violation is
directly related to the amount of force that is constitutionally permissible under the circumstances.” Id. (citing Ikerd v. Blair, 101 F.3d 430, 434-435 (5th Cir.
1996)). Finally, “a psychological injury may suffice to
support a constitutional claim of excessive force in an
action under Section 1983.” Id. at *25 (citing Dunn v.
Denk, 79 F.3d 401, 403-404 (5th Cir. 1995)).
Here, Plaintiff was attempting to lawfully drive
his car away when Defendant Lamb exited his vehicle,
pointed his gun at Plaintiff and threatened to “put a
bullet through his fucking skull,” and “blow his head
off ” Defendant Lamb threatened to kill and attempted
to shoot Plaintiff for no lawful basis. (Id. at ¶ 23-24, 28,
48, 58, 63). Plaintiff alleged that Defendant Lamb’s act
of threatening to kill him, pointing a gun at him, and
attempting to shoot the gun, were objectively unreasonably, unnecessary and excessive where Plaintiff
had done nothing unlawful, no crime was committed
nor was one about to be committed that warranted any
use of force whatsoever. (Id. at ¶ 58-59). Plaintiff has
alleged a sufficient injury where Defendant Lamb’s actions caused Plaintiff emotional harm and emotional

33a
Appendix C
injury, fright, shock, mental anguish, humiliation and
embarrassment. (Id. at ¶ 66). Plaintiff has alleged an
injury resulting from force and has alleged and described the unreasonableness of Defendant Lamb’s
actions. Accordingly, Plaintiff has stated a claim for excessive force against Defendant Lamb for pointing a
gun at Plaintiff, threatening to shoot and kill Plaintiff,
and attempting to shoot Plaintiff.
b. Constitutional Violation – Unlawful Detention
“Fourth Amendment protections attach “whenever
a police officer accosts an individual and restrains his
freedom to walk away.” Flores v. Rivas, 2019 U.S.
LEXIS 178034, at *17 (W.D. Tex. Aug. 11, 2019) (quoting Lincoln v. Turner, 874 F.3d 833, 844 (5th Cir. 2017).
Warrantless searches and seizures, often called “investigatory stops,” are permissible “only if based on reasonable suspicion that ‘criminal activity is afoot.’ ”
United States v. Martinez, 486 F.3d 855, 859 (5th Cir.
2007) (citing Terry v. Ohio, 392 U.S. 1, 30, 88 S.Ct. 1868,
20 L.Ed.2d 889 (1968)). “The presence or absence of
reasonable suspicion must be determined in light of
the totality of the circumstances confronting a police
officer, including all information available to the officer
at the time of the decision to stop a person.” United
States v. Silva, 957 F.2d 157, 160 (5th Cir. 1992). The
Terry stop is a far more minimal intrusion, simply allowing the officer to briefly investigate further. See Illinois v. Wardlow, 528 U.S. 119, 126 (2000). If the officer

34a
Appendix C
does not learn facts rising to the level of probable
cause, the individual must be allowed to “go on his
way.” Id.
“A person is seized when an officer, by means of
physical force or show of authority, has in some way
restrained that person’s liberty.” Flores, at *17 (citing
Flores v. City of Palacios, 381 F.3d 391, 398 (5th Cir.
2004)). “While physical force is not required, to effect a
seizure without it, “submission to the assertion of authority is necessary.” ” Id. at *19 (quoting McLin v. Ard,
866 F.3d 682, 691 (5th Cir. 2017). A “person has been
“seized” within the meaning of the Fourth Amendment
only if, in view of all of the circumstances surrounding
the incident, a reasonable person would have believed
that he was not free to leave.” United States v. Mendenhall, 446 U.S. 544, 554, 100 S. Ct. 1870, 1877, 64
L. Ed. 2d 497 (1980). Circumstances that might indicate a seizure, “even where the person did not attempt
to leave,” can be the “threatening presence of several
officers, the display of a weapon by an officer, some
physical touching of the person of the citizen, or the
use of language or tone of voice indicating that compliance with the officer’s request might be compelled.” Id.
“The test is necessarily imprecise, because it is designed to assess the coercive effect of police conduct,
taken as a whole, rather than to focus on particular
details of that conduct in isolation.” Mich. v. Chesternut, 486 U.S. 567, 574 (1988). “Moreover, what constitutes a restraint on liberty prompting a person to
conclude that he is not free to ‘leave’ will vary, not only

35a
Appendix C
with the particular police conduct at issue, but also
with the setting in which the conduct occurs.” Id.
Plaintiff has alleged sufficient facts to demonstrate he was unlawfully seized and detained by Defendant Lamb. Here, Plaintiff alleged that Defendant
Lamb, with a gun pointed at his head, stated that he
was a federal agent and verbally threatened to kill
Plaintiff if Plaintiff did not comply with his orders.
(ECF # 1, ¶ 23-24, 63). Plaintiff alleged that Defendant
Lamb blocked Plaintiff ’s vehicle path and physically
prevented Plaintiff from driving away, still with his
gun pointed at Plaintiff, and attempted to shoot Plaintiff. (Id. at ¶ 27-28). Plaintiff alleged that he had to call
the police for assistance. (Id. at ¶ 29). Plaintiff ’s allegations imply that he complied with Defendant Lamb’s
show of force and did not leave the parking lot, as was
his intention upon being confronted by Defendant
Lamb. Instead, he called the police for help. He had a
federal agent pointing a gun at him and preventing
him from leaving and driving his car away safely.
Plaintiff submits that he had alleged sufficient facts to
demonstrate a detainment/seizure by Defendant Lamb.
Additionally, Plaintiff has alleged sufficient circumstances to demonstrate that Defendant Lamb’s actions
were unlawful. Plaintiff was leaving a parking lot
when accosted by Defendant Lamb. Defendant Lamb
made no attempt to have any sort of investigative conversation with Plaintiff, instead making an immediate
threat to kill Plaintiff, with a gun in his hand and
pointed at Plaintiff. Plaintiff alleged that Defendant

36a
Appendix C
had no legal basis to hold Plaintiff at gunpoint where
Plaintiff had done nothing unlawful, no crime had been
committed, nor was one about to be committed that
warranted Defendant’s detainment of Plaintiff. (Id. at
¶ 58-62).
Defendant Lamb claims that his actions were lawful because of Plaintiff ’s suspicious behavior, because
his actions “could constitute harassment, stalking or
suspicion of other criminal activity.” (ECF # 22, Page
5). Plaintiff alleged that Defendant Lamb attempted to
file such a meritless charge against him, and it was rejected by the court. (Id. at ¶ 46). Further, Plaintiff has
alleged that no crime occurred, and no crime was about
to be committed to warrant Defendant Lamb’s conduct.
As the nonmoving party at the motion to dismiss stage,
all inferences are to be viewed in the light most favorable to Plaintiff. Club Retro, L.L.C., 568 F.3d at 194.
Defendant Lamb apparently believes the first step in
investigating a nonviolent suspect is to accost him
with a gun and threaten to “put a bullet through his
fucking skull.” While Plaintiff was not arrested for his
actions, Defendant Lamb was arrested and taken into
custody for Aggravated Assault with a Deadly Weapon
and Misdemeanor Criminal Mischief. (ECF # 1, ¶ 44).
When the investigating officer watched the film, Plaintiff was released. There was no lawful basis to detain
Plaintiff. No reasonable police officer would believe it
was lawful to threaten to kill and attempt to shoot a
nonviolent individual, physically prevent him from
leaving, and keep him detained at gunpoint. Plaintiff

37a
Appendix C
has stated a claim of unlawful seizure against Defendant Lamb.
c.

Qualified Immunity – Clearly Established
Law

Defendant Lamb is not entitled to qualified immunity for his conduct because he violated Plaintiff ’s
clearly established constitutional rights to be free from
excessive force and unlawful seizures. To “defeat a
qualified immunity defense” at the motion to dismiss
stage, “the plaintiff ’s burden is discharged if the plaintiff ’s pleadings assert facts which, if true, would overcome the defense of qualified immunity.” Brown v. City
of Houston, 297 F. Supp. 3d 748, 773 (S.D. Tex. 2017)
(citing Martone v. Livingston, 2014 U.S. Dist. LEXIS
96375, at *21 (S.D. Tex. July 16, 2014)). See also.,
O’Bryant v. Walker Cty., 2009 U.S. Dist. LEXIS 6301, at
*5-6 (S.D. Tex. Jan. 29, 2009) (“At the motion to dismiss
stage, a Section 1983 cause of action survives a qualified immunity challenge if the allegations in the complaint [evidence] ‘an objectively unreasonable violation
of a clearly established right.’ If, on the other hand, the
evidence viewed most favorably to the nonmovant
gives rise to a difference of opinion as to the lawfulness
of the action among reasonably competent officers, the
police officer is entitled to qualified immunity.”)). As
discussed herein, Plaintiff has alleged sufficient facts
to support both his claim of excessive force and unlawful detention. Defendant Lamb is therefore not entitled
to dismissal. See Manis, at *24-27; Hodge, at *17-19.

38a
Appendix C
“In order for a right to be ‘clearly established,’ the
relevant legal authorities must give the officer ‘fair
warning’ that his or her conduct was unlawful.” Gerhart v. McLendon, 714 Fed. Appx. 327, 333 (5th Cir.
2017) (citing Hope v. Pelzer, 536 U.S. 730, 739-41
(2002)). “Although the right cannot be defined too abstractly, the Supreme Court has rejected any requirement that the facts of prior cases be ‘fundamentally’ or
‘materially’ similar.” Id. (citing Hope, at 741). “Thus, officials can still be on notice that their conduct violates
established law even in novel factual circumstances.
The key question is not whether there is a case directly
on point, but whether a reasonable officer would understand that his or her conduct was unlawful.” Id. (citing Kinney v. Weaver, 367 F.3d 337, 349-50 (5th Cir.
2004) (internal citation omitted).
The court “need not immunize an officer from suit
for an obvious violation simply because no case has
held that the officer’s precise conduct was unlawful.”
Id. at 334-335. Where there is an absence of controlling
authority, “a consensus of cases of persuasive authority” can be “sufficient to compel the conclusion that no
reasonable officer could have believed that his or her
actions were unlawful. Case law need not be directly
on point, though it should be close, and if the conduct
is particularly outrageous, the caselaw putting the
officer on notice can be more general in character.”
Graves v. Zachary, 277 Fed. Appx. 344, 348 n.4 (5th
Cir. 2008) (citing McClendon v. City of Columbia, 305
F.3d 214, 329 (5th Cir. 2002) and Pierce v. Smith, 117

39a
Appendix C
F.3d 866, 882 (5th Cir. 1997) (“We recognize that in order to preclude qualified immunity it is not necessary
that the very action in question has previously been
held unlawful, or that the plaintiff point to a previous
case that differs only trivially from his case. However,
the facts of the previous case do need to be materially
similar. We also recognize that the egregiousness and
outrageousness of certain conduct may suffice to obviously locate it within the area proscribed by a more general constitutional rule . . . .”) (unpublished, Exhibit 2).
Here, Plaintiff “had a clearly established right to
be free from excessive force, and it was clearly established that the amount of force that the officers could
use depended on the severity of the crime at issue,
whether the suspect posed a threat to the officer’s
safety, and whether the suspect was resisting arrest or
attempting to flee.” Deville v. Marcantel, 567 F.3d 156,
169 (5th Cir. 2009). Under these factors, no use of force
was permitted where Plaintiff had not committed a
crime, did not pose a threat to Defendant Lamb’s immediate safety, and was not resisting arrest nor attempting to flee a legitimate police stop.
In Hinojosa v. Terrell, 834 F.2d 1223, 1230 (5th
Cir. 1988), the plaintiffs alleged excessive force and
Court found that pointing a gun was not so “grossly
disproportionate to the need for action under these circumstances.” Id. at 1230-1231. There, officers had responded to a pool hall where fights had and were
continuing to occur and where one officer was “on the
ground engaged in a physical altercation.” Id. The

40a
Appendix C
court placed emphasis on the fact that there was no
physical injury resulted, a factor that is no longer dispositive of the analysis. Id. at 1230; Flores, at 397-398;
Manis, at *25-26. While finding the act of pointing a
gun was not excessive force under those facts, the
Hinojosa court did not foreclose excessive force claims
being brought when a citizen is unlawfully threatened
with a gun by police officers where there is no lawful
basis to do so. Accordingly, Plaintiff submits that his
right to be free from excessive force in having a gun
pointed at him was clearly established law and Defendant Lamb is not entitled to qualified immunity.
Finally, an individual’s right to be free from detention absent reasonable suspicion was clearly established well before the actions giving rise to this case.
See Ibarra v. Harris Cty. Tex., 243 Fed. Appx. 830, 833
(5th Cir. 2007) (“The law is clearly established that a
detention is objectively unreasonable if the police officers lacks reasonable suspicion to believe that the person is engaged in criminal activity . . . .”) (citing Brown
v. Texas, 443 U.S. 47, 51 (1979) (unpublished, Exhibit
3). Defendant Lamb is not entitled to qualified immunity for detaining Plaintiff at gunpoint and threating to
blow his head off if he did not comply where Plaintiff
had not committed any crime and Defendant Lamb
had no reasonable suspicion or lawful basis to detain
Plaintiff.

41a
Appendix C
CONCLUSION
For the reasons stated herein, Plaintiff respectfully requests this Honorable Court deny Defendant
Lamb’s motion to dismiss.
Respectfully submitted,
EXCOLO LAW, PLLC
Dated: November 12, 2019 By: /s/ Solomon M. Radner
Solomon M. Radner
MI Bar No. P73653
Attorney for Plaintiff
26700 Lahser Rd.,
Suite 401
Southfield, MI 48033
(866) 939-2656
sradner@excololaw.com

CERTIFICATE OF SERVICE
Undersigned hereby states that on November 12,
2019, he caused the foregoing document to be filed electronically with the United States District Court and
that a copy of said document was sent to all counsel of
record through the Court’s CM/ECF electronic filing
system.
/s/ Solomon M. Radner

42a
Appendix D
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
KEVIN BYRD,

§
§
Plaintiff,
§
vs.
§
AGENT RAY LAMB;
§
OFFICER KOSKA; and
§
OFFICER W. LINDEMANN, §
§
Defendants.

CIVIL ACTION NO.
4:19-cv-3014

AGENT RAY LAMB’S MOTION TO DISMISS
PURSUANT TO RULE 12(b)(6) OF THE
FEDERAL RULES OF CIVIL PROCEDURE
TO THE HONORABLE UNITED STATES DISTRICT
JUDGE:
Ray Lamb files this Partial Motion to Dismiss in
response to Plaintiff ’s Original Complaint pursuant to
Rule 12(b)(6) of the Federal Rules of Civil Procedure
and for the same would show as follows:
I.

NATURE AND STAGE OF PROCEEDINGS

Plaintiff, Kevin Byrd, filed his Original Petition on
August 13, 2019 against Defendants alleging causes of
action for a violation of his civil rights with regard to
an incident that occurred on February 2, 2019. Plaintiff specifically alleges Fourth Amendment unlawful

43a
Appendix D
detention and excessive force claims against Defendant Ray Lamb (Hereafter “Mr. Lamb”), Fourth Amendment unlawful detention, arrest and excessive force
claims against Defendant Officer Koska and a Fourth
Amendment failure to intervene claim against Defendant Officer Lindemann.
II.

STATEMENT OF ISSUES PRESENTED

The issues presented in this motion are as follows:
1)

Are Plaintiff ’s claims sufficient to allege an
actual constitutional violation against Mr.
Lamb with regard to excessive force?

2)

Are Plaintiff ’s claims sufficient to allege an
actual constitutional violation against Mr.
Lamb with regard to unlawful detention?

3)

Does Plaintiff ’s pleading overcome this officer’s entitlement to qualified immunity with
regard to Plaintiff ’s excessive force and unlawful detention claims?
III. STANDARD OF REVIEW
PURSUANT TO RULE 12(b)(6)

A Rule 12(b)(6) motion to dismiss should be
granted when a plaintiff fails to provide the “grounds
of his entitlement to relief.” FED. R. CIV. P. 12(b)(6)
(“failure to state a claim upon which relief can be
granted”); Bell Atlantic v. Twombly, 550 U.S. 544, 555
(2007). “[T]o survive a motion to dismiss, a complaint

44a
Appendix D
must contain sufficient factual matter, accepted as
true, to ‘state a claim to relief that is plausible on its
face.’ ” Ashcroft v. Iqbal, 556, U.S. 662, 678 (2009) (quoting Twombly, 550 U.S. at 570). A “claim has facial plausibility when the plaintiff pleads factual content that
allows the court to draw the reasonable inference that
the defendant is liable for the misconduct alleged.” Id.
(citing Twombly, 550 U.S. at 556); Young. v. Vanerson,
612 F.Supp.2d 829, 846 (S.D. Tex. 2009).
To survive a motion to dismiss, Plaintiff ’s complaint must state a “plausible” claim for relief:
Determining whether a complaint states a
plausible claim for relief will . . . be a contextspecific task that requires the reviewing court
to draw on its judicial experience and common
sense. But where the well-pleaded facts do not
permit the court to infer more than the mere
possibility of misconduct, the complaint has
alleged – but it has not show[n] – that the
pleader is entitled to relief.
Iqbal, 556 U.S. at 679 (internal citations and quotations omitted).
Plaintiff ’s complaint must include facts that “raise
a right to relief above the speculative level,” and into
the “realm of plausible liability.” Twombly, 550 U.S. at
555. Plaintiff ’s obligation to “provide the grounds of his
entitle[ment] to relief requires more than labels and
conclusions, and a formulaic recitation of the elements
of a cause of action will not do.” Id. (citing Papasan v.

45a
Appendix D
Allain, 478 U.S. 265, 286 (1986) (internal quotations
omitted)).
Under Twombly, a plaintiff ’s complaint must
“nudg[e] his claim across the line from conceivable to
plausible.” Id. Accordingly, “[t]hreadbare recitals of the
elements of a cause of action, supported by mere conclusory statements do not suffice.” Iqbal, 556 U.S. at
678. Legal conclusions “must be supported by factual
allegations.” Id. “However, conclusory allegations or
legal conclusions masquerading as factual conclusions will not suffice to prevent a motion to dismiss.”
Fernandez-Montes v. Allied Piolets Ass’n, 987 F.2d 278,
284 (5th Cir. 1993).
IV.

ARGUMENTS AND AUTHORITIES

No Constitutional Violation has been Alleged Regarding Excessive Use of Force
Under 42 U.S.C. § 1983, to prevail on an excessive
use of force claim, a plaintiff must show “(1) an injury
(2) which resulted directly and only from a use of force
that was clearly excessive, and (3) the excessiveness of
which was clearly unreasonable.” Harris v. Serpas, 745
F.3d 767, 772 (5th Cir. 2014) (quoting Ramirez v.
Knoulton, 542 F.3d 124, 128 (5th Cir. 2008)). Although
the Fifth Circuit no longer requires a “significant injury” for excessive force claims, the injury must be
more than de minimis. Williams v. Bramer, 180 F.3d
699, 703 (5th Cir. 1999); Tarver v. City of Edna, 410 F.3d
at 752 (5th Cir. 2005). In the present case, Plaintiff ’s

46a
Appendix D
allegations of merely the “use of a gun” and the “threat
of deadly force” simply do not rise to the level of a constitutional violation under well-settled Fifth Circuit
law Plaintiff has not alleged any conduct that indicates
any act or use of force against Plaintiff at all that resulted in any injury to Plaintiff whatsoever.
Plaintiff alleges that Mr. Lamb’s “strikes on the
window left marks and scratches” and that Mr. Lamb
“with his gun drawn, then stepped in front of Mr.
Byrd’s car to prevent him from driving away” after he
“threatens” Plaintiff with mere words. Dkt. 1 pg. 3-4.
Plaintiff fails to make any other allegations concerning
any use of force or injury. Even Plaintiff ’s own allegations indicate the alleged weapon drawing and threats
of force did not result in any physical harm to Plaintiff.
Plaintiff has failed to show an injury resulting
from force and has further failed to show that the force
was clearly unreasonable, as required for his claims
against Mr. Lamb. Because Plaintiff fails to allege an
injury that constitutes a constitutional violation, his
excessive force claim against Defendant Lamb should
be dismissed.
No Constitutional Violation has been Alleged
Regarding Unlawful Detention
Plaintiff has failed to establish that a detention
took place during the encounter with Mr. Lamb. For
there to be an unlawful detention, the person in question must have been subject to an unlawful search or

47a
Appendix D
seizure under the Fourth Amendment. A person is not
seized unless “in view of all of the circumstances surrounding the incident, a reasonable person would have
believed that he was not free to leave.” United States v.
Mendenhall, 446 U.S. 544, 545 (1980). The majority in
Michigan v. Chesternet, 486 U.S. 567, 575 n.9 (1988)
held that a seizure requires either physical force or,
where that is absent, submission to a show of authority. Here, there was no physical force used because the
interaction between Plaintiff and Mr. Lamb did not
involve any physical contact. The alleged facts do not
indicate that Plaintiff was submitting to a show of authority by Mr. Lamb. Therefore, Plaintiff has not established that the circumstances of this incident rose to
the level of a seizure or detention.
Even if this court found that Plaintiff was subject
to detention, it was not an unlawful detention. “Under
Terry, if a law enforcement officer can point to specific
and articulable facts that lead him to reasonably suspect that a particular person is committing, or is about
to commit, a crime, the officer may briefly detain—that
is, ‘seize’—the person to investigate.” U.S. v. Hill, 752
F.3d at 1029, 1033 (citing United States v. Jordan, 232
F.3d 447, 448 (5th Cir. 2000)); see also United States v.
Sanders, 994 F.2d 200, 203 (5th Cir. 1993) (“[A]fter the
Supreme Court’s opinion in Terry v. Ohio, it is now axiomatic that the police are allowed to stop and briefly
detain persons for investigative purposes if the police
have a reasonable suspicion supported by articulable
facts that criminal activity may be afoot.”) (internal

48a
Appendix D
quotation marks and footnote omitted). Plaintiff ’s allegations themselves show that Mr. Lamb was justified
in having reasonable suspicion of Plaintiff – according
to the allegations, Plaintiff went to the establishment
where Mr. Lamb’s son was the night before, after finding out that information from a third party and parked
right next to Mr. Lamb’s son’s car. Dkt. 1 pg. 4. These
actions, even as alleged, could constitute harassment,
stalking, or suspicion of other criminal activity. Therefore, based on Plaintiff ’s suspicious behavior regarding
Mr. Lamb and his family, any possibly construed detention was lawful. Because no detention occurred and if
it did, it was lawful, Plaintiff ’s claims of unlawful detention against Mr. Lamb should be dismissed.
Qualified Immunity
The doctrine of qualified immunity shields officials from civil liability so long as the conduct of the
officials “does not violate clearly established statutory
or constitutional rights of which a reasonable person
would have known.” Pearson v. Callahan, 555 U.S. 223,
231 (2009) (quoting Harlow v. Fitzgerald, 457 U.S. 800,
818 (1982)). A clearly established right is one that is
“sufficiently clear that every reasonable official would
have understood that what he is doing violates that
right.” Reichle v. Howards, 566 U.S. 658, 664 (2012)
(cleaned up). “[E]xisting precedent must have placed
the statutory or constitutional question beyond debate.” Ashcroft v. al-Kidd, 563 U.S. 731, 741 (2011). Put
simply, qualified immunity protects “all but the plainly

49a
Appendix D
incompetent or those who knowingly violate the law.”
Malley v. Briggs, 475 U.S. 335, 341 (1986).
The qualified immunity inquiry includes two parts.
In the first part, the court asks whether the officer’s
alleged conduct has violated a federal right; in the second, it asks whether the right in question was “clearly
established” at the time of the alleged violation, such
that the officer was on notice of the unlawfulness of his
or her conduct. The officer is entitled to qualified immunity if there is no violation, or if the conduct did not
violate law clearly established at the time. Tolan v. Cotton, 572 U.S. 650, 655-56 (2014) (per curiam).
Here, both prongs of the qualified immunity test
are in favor of Mr. Lamb. First, Plaintiff has not pled
sufficient facts for his claims to rise to the level of a
constitutional violation. Galvan v. City of San Antonio,
435 Fed. Appx. 309-11 (5th Cir. 2010) (per curiam)
(“When dealing with an uncooperative suspect, police
act within the scope of objective reasonableness when
they “react[ ] with measured and ascending responses.”)
Glenn v. City of Tyler, 242 F.3d at 314 (5th Cir. 2001)
(“handcuffing too tightly, without more, does not
amount to excessive force.”); Tarver, 410 F.3d at 752
(“[a]s Tarver does not allege any degree of physical
harm greater than de minimis from the handcuffing,
we find that he has not satisfied the injury requirement of a § 1983 claim.”). Plaintiff has failed to allege
any actions by Mr. Lamb that could be construed as
use of force or unlawful detention, and much less, any
acts that would defeat his qualified immunity. Because

50a
Appendix D
Plaintiff has failed to allege a constitutional violation,
his claims against Mr. Lamb should be dismissed.
Second, Plaintiff has identified no clearly established right under Fifth Circuit precedent that Mr.
Lamb violated. No reasonable officer (or any officer for
that matter) would have believed the actions complained of here would amount to a constitutional violation. Admittedly, research on these alleged facts is
lacking because they amount to almost no actions to
complain of at all. The alleged actions fall below even
minimal actions that have been dismissed in other
cases, like tightly handcuffing someone. These allegations consist of mere words, scratches on a window, and
standing in front of a car. These allegations are grossly
insufficient for a constitutional claim and legal precedent provides no clearly established right of Plaintiff
to be free from words of an officer, scratches on a window, and standing in front of a car, especially given the
suspicious actions of Plaintiff. Therefore, Mr. Lamb is
entitled to qualified immunity and Plaintiff ’s claims
should be dismissed.
V.

CONCLUSION AND PRAYER

Defendant Ray Lamb respectfully requests that
the Court grant his Partial Motion to Dismiss and dismiss the claims of excessive force and unreasonable

51a
Appendix D
detention in Plaintiff ’s Original Complaint as against
this Defendant pursuant to Fed. R. Civ. P. 12(b)(6).
Respectfully submitted,
By: /s/ Drew Willey
Drew Willey
Fed ID: 2513935
SBN: 24093371
P.O. Box 2813
Houston, Texas 77252
713-739-9455 (p)
713-510-1950 (f)
Drew@Law-DW.com
ATTORNEY-IN-CHARGE
FOR DEFENDANT LAMB

CERTIFICATE OF SERVICE
I, Drew Willey, certify by my signature below that
the foregoing document was electronically filed with
this Court on Oct. 22, 2019, which constitutes service
on Filing Users.
/s/ Drew Willey

52a
Appendix E
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
KEVIN BYRD
Case No. 4:19-cv-3014

Plaintiff,

JURY DEMANDED

v.
AGENT RAY LAMB;
OFFICER KOSKA; and
OFFICER W. LINDEMANN,
Defendants,

/

COMPLAINT AND DEMAND FOR JURY TRIAL
NOW COMES Plaintiff, KEVIN BYRD, by and
through his attorneys, complaining of Defendants, and
respectfully alleges as follows:
JURISDICTION AND VENUE
1. This is a civil rights action in which the Plaintiff seeks relief for the violation of this rights secured
by 42 U.S.C. § 1983, Bivens v. Six Unknown Agents,
403 U.S. 388 (1971), and the Fourth and Fourteenth
Amendment.
2. Jurisdiction of this Court is found upon 28
U.S.C. §§ 1331 and 1367(a).

53a
Appendix E
3. The events that give rise to this lawsuit took
place in the City of Conroe, County of Montgomery,
State of Texas.
4. Venue is appropriate in the Southern District
of Texas pursuant to 28 U.S.C § 1391(b) since the acts
providing the legal basis for this complaint occurred in
the City of Conroe, County of Montgomery, State of
Texas.
PARTIES
5. Plaintiff, Kevin Byrd (“Mr. Byrd” or “Plaintiff ’), is a law-abiding citizen of the United States and
a resident of the City of Conroe, County of Montgomery, State of Texas.
6. Defendant, Ray Lamb (“Defendant Lamb”), is
employed by the United States Federal Government as
an agent in the Homeland Security Department and
was acting under color of law.
7. Defendant, Officer Koska (“Defendant Koska”),
is employed by the City of Conroe as a police officer in
the Conroe Police Department and was acting under
the color of law.
8. Defendant, Officer W. Lindemann (“Defendant
Lindemann”), is employed by the City of Conroe as a
police officer in the Conroe Police Department and was
acting under the color of law.

54a
Appendix E
9. The individual Defendants Lamb, Koska and
Lindemann, when referred to collectivity, will be referred to as the individually named “Defendant Officers.”
10. Each and all of the acts of the Defendants
alleged herein were committed by said Defendants
while acting within the scope of their employment by
the Conroe Police Department.
11. All herein complained of actions of the Defendants were done recklessly, intentionally, maliciously, gross negligently, wantonly, knowingly, and
with deliberate indifference, and in a manner that
shocks the conscience.
STATEMENT OF FACTS
12. On February 2, 2019, Mr. Byrd was at the
hospital visiting his ex-girlfriend, Darci Wade, who had
just been involved in a serious motor vehicle accident.
13. Mr. Byrd had received a phone call in the
early hours of the morning requesting him to go to the
hospital because Darci Wade had been severely injured
and was requesting Mr. Byrd’s presence.
14. The accident occurred when Eric Lamb collided with a Greyhound Bus which allegedly was broken down on the side of the road. Eric Lamb was
driving Darci Wade’s vehicle.

55a
Appendix E
15. While at the hospital, Mr. Byrd spoke with a
friend of Darci’s, and learned about the accident.
16. Mr. Byrd then left the hospital. Mr. Byrd initially left to go check on Darci’s pets and let them out.
17. On his way, Mr. Byrd learned that Darci and
Eric Lamb had been kicked out of an establishment the
night before.
18. Mr. Byrd decided to go to the establishment
and inquire as to why they had been kicked out.
19. While waiting in the parking lot, Mr. Byrd
saw a caretaker or custodian cleaning the parking lot.
Mr. Byrd had a conversation with the man and learned
that the entire parking lot is under video surveillance
and that if he could obtain the video footage from the
manager, who would arrive in a few hours.
20. Mr. Byrd was parked near a red dodge truck
that he believed to be Eric Lamb’s vehicle.
21. While waiting to speak to the manager, Mr.
Byrd got hungry and decided to leave the parking lot
to get something to eat.
22. As Mr. Byrd starts to drive away he notices
someone inside of the red truck and thought it was Eric
Lamb. It was not Eric Lamb, but Ray Lamb, (Defendant Lamb), Eric’s father.

56a
Appendix E
23. Defendant Lamb immediately jumps out and
threatens Mr. Byrd with a gun and states that he
would “put a bullet through his fucking skull.”
24. Defendant Lamb yelled at Mr. Byrd that he
is a federal agent and told him to roll down his window
or he would blow his head off.
25. Defendant Lamb then attempts to smash the
window of Mr. Byrd’s car on two occasions.
26. Defendant Lamb’s strikes on the window left
marks and scratches.
27. Defendant Lamb, with his gun drawn, then
stepped in front of Mr. Byrd’s car to prevent him from
driving away.
28. Defendant Lamb then tries to pull the trigger
at Mr. Byrd but the bullet falls out / becomes dislodged.
29.

Mr. Byrd calls the police to his assistance.

30. When Defendant Koska arrives, Defendant
Lamb shows him his police-credentials.
31. Defendant Koska then immediately places
Mr. Byrd in handcuffs and detains him in the back of
the squad car.
32.
after.

Defendant Lindemann arrives shortly there-

33. The handcuffs were so tight they caused Mr.
Byrd’s hands to turn purple.

57a
Appendix E
34. Mr. Byrd asked Defendant Officers to loosen
the handcuffs and to allow him to use the restroom.
35.

Defendant Officers denied these requests.

36. Defendant Officers kept Mr. Byrd detained in
this manner near four hours.
37. Defendant Lamb’s wife then exited her vehicle and picked up the dislodged bullets from her husband’s gun and put them in her car.
38. After some time, another officer shows up
and conducts an investigation.
39. Mr. Byrd speaks to the officer and told him
that he was in the parking lot before Defendant Lamb
and that the officer should check the surveillance videos in the parking lot to confirm.
40. After seeing the videos, the investigating officer told Mr. Byrd that he was free to stay while he
completed his investigation of Defendant Lamb.
41. Mr. Byrd told the officer he wished to press
charges against Defendant Lamb.
42. The Officers Koska and Lindemann told Mr.
Byrd that he was not free to stay and needed to leave
the scene.
43. Out of concerns for his safety, having heard
different instructions from the officers, Mr. Byrd left
the parking lot.

58a
Appendix E
44. Upon information and belief, once Mr. Byrd
left the parking lot, Defendant Lamb was arrested and
taken into custody for Aggravated Assault with a
Deadly Weapon and Misdemeanor Criminal Mischief
for his unlawful conduct against Mr. Byrd.
45. After Defendant Lamb was arrested, Mr.
Byrd received a phone call from a blocked number informing him that “he doesn’t know who he has fucked
with.” Upon information and belief, Eric Lamb made
this phone call.
46. After Defendant Lamb was arrested, Eric
Lamb and/or Defendant Lamb and/or Mrs. Lamb attempted to file harassment charges against Mr. Byrd.
These charges were rejected by a court. Upon information and belief, these charges were instigated by Defendant Lamb.
47. Since Ray Lamb was arrested, Mr. Byrd had
experienced stalking and his business has received
false tips of unlawful activity requiring Mr. Byrd to
retain counsel on the matter. Upon information and belief, Defendant Lamb caused the falsehood and instigated theft charges against Mr. Byrd.
48. Defendant asserted his privilege as a federal
officer when he held Mr. Byrd at gunpoint. There was
no lawful reason for Defendant Lamb to detain Mr.
Byrd and no legal basis whatsoever to hold him at gun
point.

59a
Appendix E
49. There was no lawful reason whatsoever for
Defendant Koska and Defendant Lindemann to detain
and arrest Mr. Byrd.
50. As a direct and proximate result of the
wrongful acts and omissions of Defendants, Mr. Byrd
has sustained damages.
COUNT I
VIOLATION OF CIVIL RIGHTS UNDER BIVENS
(Fourth Amendment – Unlawful
Detention and Excessive Force)
(Against Defendant Lamb)
51. Plaintiff incorporates herein all the prior allegations.
52. The Fourth Amendment guarantees citizens
to be secure in their persons from unreasonable search
and seizures.
53. A law enforcement officer may conduct an investigative stop if he has a reasonable suspicion, based
on specific and articulable facts, that the stopped citizen has or is about to commit a crime.
54.

Mr. Byrd is a law-abiding citizen.

55. At all relevant time, Mr. Byrd had a clearly
established right to liberty, including his right to personal safety and bodily integrity, as well as protection
from interrogations and unlawful stops and excessive

60a
Appendix E
force pursuant to the Fourth Amendment to the United
States Constitution.
56. At all times relevant, as a federal agent acting under color of law, Defendant Lamb was required
to obey the laws of the United States.
57. At all times relevant, Defendant Lamb was
acting under color of law where he stated he was a federal agent and ordered Mr. Byrd to comply.
58. Defendant Lamb had no reasonable suspicion nor probable cause to detain Mr. Byrd at gunpoint.
59. Further, the use of a gun and threat of deadly
force by Defendant Lamb was objectively unreasonable, unnecessary, and excessive given the circumstances.
60. Mr. Byrd had done nothing unlawful. No
crime was committed nor was one about to be committed whatsoever that warranted detention.
61. Defendant Lamb did not have any lawful basis whatsoever to detain Mr. Byrd.
62. Defendant Lamb’s actions constituted unlawful detention.
63.

Defendant Lamb threatened to kill Mr. Byrd.

64. Due to Defendant Lamb unlawful actions, he
was charged with Aggravated Assault with a Deadly
Weapon and Misdemeanor Criminal Mischief

61a
Appendix E
65. The aforementioned acts deprived Mr. Byrd
of the rights, privileges and immunities guaranteed to
citizens of the United States by the Fourth and Fourteenth Amendments to the Constitution of the United
States of America, and in violation of 42 U.S.C. § 1983.
66. As a proximate result of the illegal and unconstitutional acts of Defendant Lamb, Plaintiff was
harmed and suffered damages for his physical, mental,
emotional injury and pain, fright and shock, mental
anguish, humiliation, and embarrassment.
COUNT II
VIOLATION OF CIVIL RIGHTS
UNDER 42 U.S.C. § 1983
(Fourth Amendment – Unlawful Detention/Arrest)
(Against Defendant Koska)
67. Plaintiff incorporates herein all the prior allegations.
68. The Fourth Amendment guarantees citizens
to be secure in their persons from unreasonable search
and seizures.
69. A law enforcement officer may conduct an investigative stop if he has a reasonable suspicion, based
on specific and articulable facts, that the stopped citizen has or is about to commit a crime.

62a
Appendix E
70. The Fourth Amendment requires police officers to possess sufficient probable cause to arrest criminal suspects.
71. At all relevant times, Mr. Byrd had a clearly
established right to liberty, including his right to personal safety and bodily integrity, as well as protection
from unlawful interrogations, stops, and arrests and
excessive force pursuant to the Fourth Amendment to
the United States Constitution.
72. At all times relevant, as a police officer acting
under color of law, Defendant Koska was required to
obey the laws of the United States.
73. Defendant Koska detain Mr. Byrd without
any lawful basis.
74. Defendant Koska had no reasonable suspicion that Mr. Byrd has or was about to commit a crime.
75. In fact, it was Mr. Byrd who called the police
to help him when Defendant Lamb was holding him at
gun point for no lawful reason.
76. Defendnat Koska handcuffed and arrested
Mr. Byrd, and placed in him the backseat of his squad
car for several hours and would not loosen his handcuffs when his hands began to turn purple or allow him
to use the restroom when he asked.
77. Tightening Mr. Byrd’s handcuffs to the point
where his hands changed colors despite his plea to
loosen them was unreasonable and excessive. Mr. Byrd

63a
Appendix E
was not a threat to anyone and had called the police to
protect him. Further, preventing Mr. Byrd from using
the restroom for several hours was unreasonable and
unnecessary.
78. Defendant Koska did not have probable
cause or any legal basis to arrest Mr. Byrd.
79. Defendant Koska’s actions constituted unlawful arrest.
80. The aforementioned acts deprived Mr. Byrd
of the rights, privileges and immunities guaranteed to
citizens of the United States by the Fourth and Fourteenth Amendments to the Constitution of the United
States of America, and in violation of 42 U.S.C. § 1983.
81. As a proximate result of the illegal and unconstitutional acts of Defendant Koska, Plaintiff was
harmed and suffered damages for his physical, mental,
emotional injury and pain, fright and shock, mental
anguish, humiliation, and embarrassment.
COUNT III
VIOLATION OF CIVIL RIGHTS
UNDER 42 U.S.C. § 1983
(Fourth Amendment – Failure to Intervene)
(Against Defendant Lindemann)
82. Plaintiff incorporates herein all the prior allegations.

64a
Appendix E
83. An officer who is present at the scene and
fails to take responsible steps to protect a victim of another officer’s use of excessive force can be held responsible for his own nonfeasance.
84. At all relevant time, Mr. Byrd had a clearly
established right to liberty, including his right to personal safety and bodily integrity, as well as protection
from unlawful detention and unlawful arrests to the
Fourth Amendment to the United States Constitution.
85. Defendant Lindemann was present at the
moment Defendant Lamb and Defendant Koska unlawfully detained and arrested Mr. Byrd. A reasonable
police officer would have known that Defendant Lamb
and Defendant Koska’s actions were unlawful. Defendant Lindemann, with deliberate indifference, overlooked these unlawful actions and failed to intervene
for Mr. Byrd’s clearly established constitutional rights.
86. Defendant Lindemann decided to step back
and watched Mr. Byrd’s constitutional rights be violated.
87. At all times relevant, as a police officers acting under color of law, Defendant Lindemann was required to obey the laws of the United States.
88. Defendant Lindemann’s action and omissions constituted a unconstitutional failure to intervene.

65a
Appendix E
89. The aforementioned acts deprived Mr. Byrd
of the rights, privileges and immunities guaranteed to
citizens of the United States by the Fourth and Fourteenth Amendments to the Constitution of the United
States of America and in violation of 42 U.S.C.
§ 1983.
90. As a proximate result of the illegal and unconstitutional acts of Defendant Lindemann, Plaintiff
was harmed and suffered damages for his physical,
mental, emotional injury and pain, fright and shock,
mental anguish, humiliation and embarrassment.
PRAYER FOR RELIEF
WHEREFORE, Plaintiff, KEVIN BYRD, demands
judgment and prays for the following relief, jointly and
severally, against all Defendants:
a.

Full and fair compensatory damages in
an amount to be determined by a jury;

b.

Punitive damages in an amount to be determined by a jury;

c.

Reasonable attorney’s fees and costs of
this action; and

d.

Any such other relief as appears just and
proper.

66a
Appendix E
JURY DEMAND
Plaintiff hereby demands a trial by jury of all triable
issues, per Fed. R. Civ. P. 38(b).
Respectfully Submitted,
Dated: August 13, 2019
GRABLE GRIMSHAW, PLLC
By: /s/ Brandon J. Grable
Brandon J. Grable, Esq.
SBOT No: 24086983
SDTX No: 3246103
1603 Babcock Rd., Suite 118
San Antonio, TX 78229
(210) 963-5297
(210) 963-5291 (fax)
brandon@G2.law
and
EXCOLO LAW, PLLC
By: /s/ Solomon M. Radner
Solomon M. Radner (pro hac vice
admission to be applied for)
26700 Lahser Road, Suite 401
Southfield, MI 48033
(866) 939-2656
(248) 436-6858 (fax)
sradner@excololaw.com
Attorney-in-Charge
COUNSEL FOR PLAINTIFF

